No. __________

In the Supreme Court of the United States
JALIL LEMASON ROBINSON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

PETITIONER’S MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, Jalil Lemason Robinson, now being held by the United States
Bureau of Prisons, requests leave to file the attached Petition for Writ of
Certiorari to the Supreme Court of the United States without payment of costs
and to proceed in forma pauperis in accordance with Rule 39 of the Rules of
the Supreme Court of the United States.
Mr. Robinson is indigent and has been represented by appointed counsel
throughout the proceedings against him. On the 22nd day of March, 2018, the

United States District Court for District of Colorado appointed Matthew
Belcher counsel for Mr. Robinson in accordance with 18 U.S.C. § 3006A. The
undersigned was appointed as appellate counsel to Mr. Robinson on July 26,
2019 by the United States Court of Appeals for the Tenth Circuit in accordance
with 18 U.S.C. §3006A.
Therefore, Mr. Robinson is not required to submit a notarized affidavit
or declaration in support of this motion. Supreme Court Rule 39.1.
Respectfully submitted,
/s/ Ryan A. Ray
Ryan A. Ray, OBA # 22281
NORMAN WOHLGEMUTH, LLP
3200 Mid-Continent Tower
401 South Boston Avenue
Tulsa, OK 74103
Telephone: 918-583-7571
Facsimile: 918-584-7846
RRay@NWLawOK.com
ATTORNEY FOR PETITIONER,
JALIL LEMASON ROBINSON
Dated:

July 1, 2021

2

